No.

3fn the =upreme Court of the Hnite States
PATRICK EMANUEL SUTHERLAND,

Petitioner,
V.

UNITED STATES OF AMERICA

Respondent.

CERTIFICATE OF SERVICE
I, Barry J. Pollack, a member of the Bar of this Court, certify that on this
30th day of September 2019, I caused to be served by U.S. mail three copies of the

Petition for a Writ of Certiorari of Patrick Emanuel Sutherland on the following
counsel:

Noel J. Francisco
U.S. Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217

supremectbriefs@usdoj.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

4#4
By
J Pai

